<html>
<title> - THREATS TO PRESS FREEDOM IN THE AMERICAS</title>
<body><pre>[House Hearing, 114 Congress]
[From the U.S. Government Publishing Office]


 
                THREATS TO PRESS FREEDOM IN THE AMERICAS

=======================================================================

                                HEARING

                               BEFORE THE

                            SUBCOMMITTEE ON
                         THE WESTERN HEMISPHERE

                                 OF THE

                      COMMITTEE ON FOREIGN AFFAIRS
                        HOUSE OF REPRESENTATIVES

                    ONE HUNDRED FOURTEENTH CONGRESS

                             FIRST SESSION

                               __________

                             JULY 29, 2015

                               __________

                           Serial No. 114-83

                               __________

        Printed for the use of the Committee on Foreign Affairs
        
        
        
[GRAPHIC NOT AVAILABLE IN TIFF FORMAT]        


Available via the World Wide Web: http://www.foreignaffairs.house.gov/ 
                                  or 
                       http://www.gpo.gov/fdsys/

                                 __________
                                 
                       U.S. GOVERNMENT PUBLISHING OFFICE
95-696PDF                  WASHINGTON : 2015

________________________________________________________________________________________
For sale by the Superintendent of Documents, U.S. Government Publishing Office, 
http://bookstore.gpo.gov. For more information, contact the GPO Customer Contact Center, 
U.S. Government Publishing Office. Phone 202-512-1800, or 866-512-1800 (toll-free). 
E-mail, <a href="/cdn-cgi/l/email-protection" class="__cf_email__" data-cfemail="ea8d9a85aa899f999e828f869ac4898587c4">[email&#160;protected]</a>  
                                 
                                 
                                 
                                 
                                 
                                 
                      COMMITTEE ON FOREIGN AFFAIRS

                 EDWARD R. ROYCE, California, Chairman
CHRISTOPHER H. SMITH, New Jersey     ELIOT L. ENGEL, New York
ILEANA ROS-LEHTINEN, Florida         BRAD SHERMAN, California
DANA ROHRABACHER, California         GREGORY W. MEEKS, New York
STEVE CHABOT, Ohio                   ALBIO SIRES, New Jersey
JOE WILSON, South Carolina           GERALD E. CONNOLLY, Virginia
MICHAEL T. McCAUL, Texas             THEODORE E. DEUTCH, Florida
TED POE, Texas                       BRIAN HIGGINS, New York
MATT SALMON, Arizona                 KAREN BASS, California
DARRELL E. ISSA, California          WILLIAM KEATING, Massachusetts
TOM MARINO, Pennsylvania             DAVID CICILLINE, Rhode Island
JEFF DUNCAN, South Carolina          ALAN GRAYSON, Florida
MO BROOKS, Alabama                   AMI BERA, California
PAUL COOK, California                ALAN S. LOWENTHAL, California
RANDY K. WEBER SR., Texas            GRACE MENG, New York
SCOTT PERRY, Pennsylvania            LOIS FRANKEL, Florida
RON DeSANTIS, Florida                TULSI GABBARD, Hawaii
MARK MEADOWS, North Carolina         JOAQUIN CASTRO, Texas
TED S. YOHO, Florida                 ROBIN L. KELLY, Illinois
CURT CLAWSON, Florida                BRENDAN F. BOYLE, Pennsylvania
SCOTT DesJARLAIS, Tennessee
REID J. RIBBLE, Wisconsin
DAVID A. TROTT, Michigan
LEE M. ZELDIN, New York<greek-l>
TOM EMMER, MinnesotaUntil 5/18/
    15 deg.
DANIEL DONOVAN, New York<greek-l>As 
    of 5/19/15 deg.

     Amy Porter, Chief of Staff      Thomas Sheehy, Staff Director

               Jason Steinbaum, Democratic Staff Director
                                 ------                                

                 Subcommittee on the Western Hemisphere

                 JEFF DUNCAN, South Carolina, Chairman
CHRISTOPHER H. SMITH, New Jersey     ALBIO SIRES, New Jersey
ILEANA ROS-LEHTINEN, Florida         JOAQUIN CASTRO, Texas
MICHAEL T. McCAUL, Texas             ROBIN L. KELLY, Illinois
MATT SALMON, Arizona                 GREGORY W. MEEKS, New York
RON DeSANTIS, Florida                ALAN GRAYSON, Florida
TED S. YOHO, Florida<greek-l>        ALAN S. LOWENTHAL, California
TOM EMMER, MinnesotaUntil 5/18/
    15 deg.
DANIEL DONOVAN, New York<greek-l>As 
    of 6/2/15 deg.
                            C O N T E N T S

                              ----------                              
                                                                   Page

                               WITNESSES

Carlos Ponce, Ph.D., director of the Latin America Program, 
  Freedom House..................................................     5
Mr. Carlos Lauria, senior Americas program coordinator, Committee 
  to Protect Journalists.........................................    17
Mr. Claudio Paolillo, chairman, Freedom of the Press and 
  Information Committee, Inter-American Press Association........    26
Mr. Nicolas Perez Lapentti, co-director, El Universo in Ecuador..    53
Mr. Alfredo Corchado, Mexico bureau chief, The Dallas Morning 
  News...........................................................    75

          LETTERS, STATEMENTS, ETC., SUBMITTED FOR THE HEARING

Carlos Ponce, Ph.D.: Prepared statement..........................     8
Mr. Carlos Lauria: Prepared statement............................    20
Mr. Claudio Paolillo: Prepared statement.........................    28
Mr. Nicolas Perez Lapentti: Prepared statement...................    55
Mr. Alfredo Corchado: Prepared statement.........................    78

                                APPENDIX

Hearing notice...................................................    98
Hearing minutes..................................................    99
The Honorable Jeff Duncan, a Representative in Congress from the 
  State of South Carolina, and chairman, Subcommittee on the 
  Western Hemisphere: Material submitted for the record..........   100


                THREATS TO PRESS FREEDOM IN THE AMERICAS

                              ----------                              


                        WEDNESDAY, JULY 29, 2015

                       House of Representatives,

                Subcommittee on the Western Hemisphere,

                     Committee on Foreign Affairs,

                            Washington, DC.

    The subcommittee met, pursuant to notice, at 2:42 p.m., in 
room 2172, Rayburn House Office Building, Hon. Jeff Duncan 
(chairman of the subcommittee) presiding.
    Mr. Duncan. A quorum being present, the subcommittee will 
come to order.
    I would now like to recognize myself for an opening 
statement.
    In 1776, the Second Continental Congress of the thirteen 
United States of America declared: We hold these truths be 
self-evident, that all men are created equal, and they are 
endowed by their Creator with certain unalienable rights, that 
among these are life, liberty, and the pursuit of happiness.
    In 1791, the United States of America adopted the Bill of 
Rights, which among other things, affirmed the American 
citizens' freedom of speech, the press, and the right of people 
to peacefully assemble, the ability to speak openly without 
censure or fear of reprisal as a hallmark of free peoples 
everywhere. And the freedom of press is critical to sustaining 
democracy and the rule of law and enabling people to remain 
free from state and in some cases, nonstate control or 
oppression.
    Journalists provide needed accountability for governments 
by challenging conventional thinking; reporting on different 
and often opposing viewpoints; and offering people information 
that informs their understanding of the issues. Unfortunately, 
in our hemisphere, a trend of conditioning and even curtailing 
press freedoms in several countries is deeply disturbing.
    From severe government repression and outright targeting of 
journalists by Cuba, Venezuela, and Ecuador to organized crime, 
corruption, and impunity in other countries in Latin America, 
journalists have very difficult jobs, often risking their very 
lives and their loved ones to bring information and the truth 
to their fellow citizens.
    Although the purpose of this hearing is to highlight some 
of the more concerning trends of threats to press freedoms in 
the Americas, I do want to note that there are some bright 
spots in the region with Canada and most of the Caribbean 
having relatively open media environments in comparison to 
other countries in the region.
    In recent years, several international press rights 
monitoring organizations have expressed growing concerns about 
the deterioration of press freedoms in Latin America. Groups, 
like Freedom House, Reporters Without Borders, the Committee to 
Protect Journalists, and the Inter-American Press Association, 
all report on threats to freedoms of the press in the Western 
Hemisphere. And we are fortunate to have key experts from some 
of these groups represented here today to testify about their 
work.
    I also want to commend the efforts of the Organization of 
American States Special Rapporteur for Freedom of Expression, 
who has done some important work on threats to freedom of the 
press through highlighting progress and problems within 
specific countries in the Americas through the comprehensive 
annual reports. These reports are excellent tools for providing 
transparency and accountability to countries in the region.
    In addition, I also want to congratulate the Special 
Rapporteur for his efforts to bring to public awareness the 
issue of government surveillance programs that have threatened 
journalists' rights of privacy and freedom of expression.
    According to the Reporters Without Borders' 2015 World 
Press Freedom Index, only three countries in the Western 
Hemisphere managed to score in the top 20 of 180 countries 
documented: Canada, Jamaica, and Costa Rica. Notoriously, 
Mexico and Cuba were among the worst offenders in the Western 
Hemisphere listed in that report.
    When it comes to violence against the media, Mexico exists 
as one of the most dangerous countries for media, with 
journalists often receiving extortion and kidnapping threats 
from government officials, criminal groups, and other 
transnational gangs. In fact, Mexico accounts for more than a 
third of all of the killing of media workers and journalists in 
the hemisphere since 2009.
    In addition, Cuba ranks worst in the region, according to 
Freedom House, and among the 10 most censored countries in the 
world according to the Committee to Protect Journalists. 
Furthermore, Cuba and Venezuela have been singled out 
frequently and consistently for having repressive media 
environments and for often targeting peaceful protesters and 
political dissidents.
    In these countries, independent journalists and bloggers 
are often subject to government sanction, harassment, and 
detention. Just last year, we saw Venezuelan security forces 
opening fire on journalists during student demonstrations that 
ultimately turned deadly. These conditions have led to more 
than 400 Venezuelan journalists living in exile today.
    In addition to these countries, Ecuador, Honduras, and Peru 
all received their worst press freedom scores in over a decade 
from Freedom House. A controversial 2013 communications law in 
Ecuador has led to chilling environment, self-censorship, and 
intimidation for press organizations. Honduras passed a new 
secrecy law and has limited critical reporting of the 
government. Peru has seen an increase in threats against 
journalists and ongoing impunity and a lack of willingness to 
address past crimes against journalists.
    More over, Brazil has seen at least 16 journalists killed 
in direct response for their work since President Rousseff took 
office in January 2011. In Nicaragua, complete state control of 
the media has occurred through a monopoly, with the single 
exception of one single independent television channel. Other 
concerns about general deterioration of press freedoms in Latin 
America include the governmental abuse of libel and defamation 
laws, a general lack of support for the protection of 
journalists, reporters, and media workers, and in some places 
an outright attempt to eliminate an independent media 
altogether.
    So, in conclusion, threats to the press freedoms and the 
Americas are ongoing and increasing. Abraham Lincoln once 
stated that ``No man is good enough to govern another man 
without that other's consent.''. Today, in the Western 
Hemisphere, there are some people who are seeking to do just 
that: Control populations; prevent freedom of thought and 
expression; and eliminate avenues for questioning; state 
control by silencing the voice of those who are most able to 
speak truth to power.
    Our witnesses today are uniquely positioned to share their 
research and personal experiences in various countries of 
oppression, and I look forward to considering how the U.S. can 
better engage in the region to more effectively partner with 
other countries to promote the freedom of press.
    With that, I will turn to the ranking member, Mr. Sires, 
for an opening statement he may have.
    Mr. Sires. Thank you, Mr. Chairman.
    Good afternoon, and thank you to our witnesses for being 
here today. And especially Alfredo Corchado and Nicolas Perez, 
who traveled a long way to be here. We certainly appreciate you 
being here.
    Freedom of expression is a keystone that holds any 
democracy together. Being able to speak without censorship is a 
right that should never be stifled. Furthermore, it is the 
number one mechanism to hold people in government accountable 
for their actions. In recent years, many organizations 
dedicated to freedom of speech and advancing civil societies 
have been trying to bring attention to the deterioration of 
press freedom in Latin America.
    Cuba has consistently been characterized as having one of 
the most repressive media environments in the world, with the 
Castro regime controlling all aspects of the print and 
electronic media. Venezuela and Ecuador have made deliberate 
attempts to eliminate their dissenters and inhibit free speech. 
They have harassed and fined the media; shut down their 
operations; and even physically attacked journalists who are 
trying to expose the state-sponsored crackdown against 
peaceful, political dissenters.
    Ecuador's 2013 law forces media organizations to print 
government-mandated edits, and corrections have led to the 
country's wide censorship. This institutionalized tactic to 
censor the Ecuadorian population is unacceptable. In other 
countries, such as Mexico and Honduras, an increase in drug-
related violence and worsening security situation have created 
a culture of impunity, allowing the violence against 
journalists and press institutions to go unpunished.
    Mexico has unfortunately become one of the most dangerous 
places on Earth for journalists, with journalists regularly 
targeted for reporting organized crime or corrupt government 
officials. Mexico accounts for more than one-third of the 
killings of members of the media in Latin America in 2009. In 
Honduras, 8 million members have already lost their lives this 
year. Even in Colombia, journalists are under constant threat 
from paramilitary groups.
    As a child in Cuba, I witnessed the deterioration of 
democracy as the Castro regime took over the islands and 
systemically destroyed all aspects of freedom of speech and 
expression. There is strong connection between countries' 
Democratic values and freedoms afforded to the press. Working 
to preserve freedom of speech and pushing back against those 
who seek to quiet their dissenters should be a top priority 
when engaging with our neighbors in the region.
    I look forward to hearing from our panelists to hear their 
assessment of the hemisphere's state of affairs when it comes 
to the freedom of speech.
    Mr. Duncan. I want to thank the ranking member.
    And before we get started, I just want to enter into the 
record an article from the New York Times. I know we are 
talking about freedom of the press, but it is an example of 
government really restricting things.
    Peru's Government on Monday ordered that telecommunications 
companies grant police warrantless access to cell phone users, 
locations, and other call data in realtime and store that data 
for 3 years. This is really alarming to me because the metadata 
will cover where you are making a call, the time, and who you 
are talking to. There has been a lot of discussion in Congress 
about this sort of thing with NSA, but I want to enter this 
into the record.
    Without objection, so ordered.
    So any other members that may have an opening statement?
    Mr. DeSantis, do you have an opening statement?
    Mr. DeSantis. No, thanks.
    Mr. Duncan. Okay.
    Ms. Kelly. I want to thank the chair and ranking member and 
our witnesses for holding this important hearing on press 
freedom in Latin America.
    We are truly fortunate to live in and be Representatives of 
a Nation that recognizes and respects free press. The basis of 
our Government is to be for and by the people. And in that 
spirit, the opinion of the people matters. In many ways, the 
press are guardians of the people's opinion here in America.
    That is why I am concerned by reports that our neighbors in 
Mexico, Venezuela, Honduras, and Ecuador have experienced a 
deterioration of press freedom. Whether it be politically 
motivated or the result of criminal activity, this erosion of 
press freedom in these areas that are valued and respected by 
our Nation cannot continue.
    I look forward to our thoughtful discussion here today 
about free speech and that threat in our hemisphere. It is 
critical to the progress and prosperity of our Nation. I want 
to thank you again.
    I yield back.
    Mr. Duncan. Thank you, Ms. Kelly.
    And so the bios are in the information provided. I won't 
read those today. We will go ahead and get started.
    There will be a lighting system in front of you. Five 
minutes is what you will be recognized for. When it gets to 1 
minute left, it will go to yellow, and at the expiration, it 
will turn red. If you could try to wrap up around that time. I 
won't be hard on that, but I will start tapping the gavel when 
we get a little close.
    So the first witness is Dr. Carlos Ponce, and you are 
recognized for 5 minutes.

STATEMENT OF CARLOS PONCE, PH.D., DIRECTOR OF THE LATIN AMERICA 
                     PROGRAM, FREEDOM HOUSE

    Mr. Ponce. Thank you very much.
    Chairman Duncan, Ranking Member Sires, DeSantis, Kelly, 
distinguished members of the committee, it is an honor to 
testify before you on the state of the press freedom in Latin 
America. I ask that my full testimony be submitted to the 
record.
    I will briefly summarize the work of Freedom House; the 
current landscape for press freedom in Latin America, which 
today faces a more severe and diverse set of challenges than at 
any point in the previous years. They rank--the intimidation, 
the downward trajectory in the region is terrible at this time, 
and we can summarize what is going on in the region with a 
simple word, ``impunity.''
    The work of Freedom House has been extended in the whole 
region. Since mid-1941, Freedom House has been working for 
fundamental freedoms in the world and has been working the 
previous years in several countries in the region: Mexico, 
Ecuador, Venezuela, Nicaragua, Honduras. And in an annual 
Freedom of the Press Report, the situation in the region is 
more than sad. Only 43 percent of the region is free. The rest 
is not free or partially free.
    Freedom House has been training also journalists in Mexico 
in digital security: 1,300 journalists trained in Mexico. We 
have been helping also the Mexican Government with the Federal 
Protection Mechanism for Journalists.
    In Venezuela and in Ecuador, we have been helping several 
organizations that works with journalists or support 
journalists or train journalists.
    We have assisted 120 requests for protection from at-risk 
journalists in Mexico, Brazil, Colombia, Honduras, Ecuador, 
Guatemala, Peru, and Haiti. This is a huge challenge right now 
in the region: Extortion, persecution, the use of the judicial 
system against the journalists. One of three countries in Latin 
America, 15 percent, are rated free only. The rest, just 2 
percent of the population live in free media environment.
    We see the same situation from Mexico to Argentina, each 
one of the countries. If we record each one of the countries, 
we see the situation in Mexico, in Honduras, in Guatemala. The 
situation is getting worse. And the problem is the allocation 
of resources to go against the journalists. We see lack of 
access to information; lack of resources for the independent 
journalists and the investigative journalists; persecution 
directly against journalists; impunity against the attacks 
against the journalists; lack of protection; the monopoly of 
the media ownership, and the use of the power of the state to 
buy directly or indirectly the media outlets in each one of the 
countries. Abuse for each one of the countries in the region.
    In Argentina, since 2008, journalists and media owners have 
been demonized, persecuted, and threatened. And the 
relationship between the government and the critical press, it 
is really critical against all the media outlets. Total control 
of the use of the power of the state to buy media or to buy 
publicity in each one of the media and to persecute directly 
journalists.
    Juan Pablo Suarez, editor of the online daily Ultima Hora, 
was charged with inciting collective violence and terrorizing 
the population. So it is the use of the judiciary ones and over 
to persecute each one of the journalists.
    We can say that is the same situation in Colombia, a weak 
police justice system that doesn't work to protect the 
journalists so the journalists keep facing the same impunity 
and persecution.
    In Cuba, the situation is getting worse. With the 
normalizations, the diplomatic situations have been improving 
in Cuba. But every Sunday, we can see the Ladies in White. 
Every Sunday, we see the persecution against the civil society. 
We see the persecution not only in Cuba. When the Cubans are 
trying to leave the country, they also have problems in Panama, 
El Salvador. They have persecution also by the regime in trying 
to infuse the long arm of the regime.
    We see the persecution in every independent journalist in 
Cuba. All the organizations that try to bring information 
outside Cuba have been persecuted. Even bloggers have been 
persecuted in Cuba. Cubanet has been playing definitely a good 
role in Cuba, but it has been persecuted all the time.
    In the case of the Ecuador, not only is it about 
journalists, it is about cartoonists, like Bonilla, persecuted 
by the government directly. The government simply persecuted 
also organizations for civil society like Fundamedios. Ecuador 
experienced the second largest decline in the world, the 
freedom of the press from 2008 to 2013. It is going downward in 
the last year; 180 cases of persecution in Ecuador, and 
recently, the hacking team against all the organizations in 
Ecuador.
    Honduras is the most deadliest country for journalists.
    Guatemala, 72 organizations reported 177 during this 
administration of--the current administration in Guatemala. The 
aggression against journalists, the persecution, killing 
against the journalists.
    Mexico. Mexico has been going downward in terms of the 
protection of the journalists, and it is not free since 2011, 
according to Freedom House.
    In Venezuela, 1,773 aggressions against journalists 
documented so far in just 10 years, from 2005 to 2015. And the 
government control of all the media in Venezuela and now 
persecution even the Web pages that operate in Venezuela. Seven 
journalists killed since 2005. There is no independent media in 
Venezuela.
    It is the same situation in Mexico.
    Nicaragua, government ownership of all the media in 
Nicaragua and the persecution of anyone who wants to simply 
express the right to go and ask independent election in 
Nicaragua, persecuted by the police, persecuted by the regime 
now. And we can see that this is a pattern around the region.
    Mr. Duncan. Dr. Ponce, if you can start wrapping up.
    Mr. Ponce. Yeah. Yeah.
    Now, just a recommendation. We need to publicly express 
concerns about the situation of the attacks of the journalists, 
bloggers, citizen reporters, and activists. And we need to also 
support the independent and alternative media programs in the 
region; support establishment and strengthen and well fund an 
efficient program to support mechanisms, protection mechanisms 
in each one of the countries.
    One of the positive things is Honduras has a mechanism. 
Mexico has a mechanism. Colombia has a mechanism. But they need 
economic support. Provide support to the Inter-American 
Commission of Human Rights and the Offices of the Special 
Rapporteur for Freedom of Expression. And pass the Global 
Magnitsky Human Rights Accountability Act right now.
    [The prepared statement of Mr. Ponce follows:]
    [GRAPHICS NOT AVAILABLE IN TIFF FORMAT]    
        
                              ----------                              

    Mr. Duncan. Thank you.
    Dr. Carlos Lauria, you are recognized for 5 minutes.

    STATEMENT OF MR. CARLOS LAURIA, SENIOR AMERICAS PROGRAM 
         COORDINATOR, COMMITTEE TO PROTECT JOURNALISTS

    Mr. Lauria. Thank you, Mr. Chairman.
    I would like to commend Chairman Duncan and members of the 
House Subcommittee on the Western Hemisphere for holding this 
important hearing and for providing the Committee to Protect 
Journalists the opportunity to testify before you. CPJ is an 
independent, nonprofit organization dedicated to promote 
freedom of press worldwide and defend the rights of 
journalists. It is an honor to speak to you today.
    What I have experienced in more than a decade at CPJ is 
that while Latin American media are certainly freer and more 
vibrant now than during previous decades, journalists in the 
region continue to face serious challenges on different fronts. 
The regional press continues to hold governments accountable, 
exposing corruption and human rights abuses in the face of 
ongoing threats by organized crime and officials in their 
attempt to thwart freedom of expression.
    Despite the strong tradition of independent, investigative, 
and critical media in many countries of the region, journalists 
are increasingly vulnerable to both violence and government 
harassment. More than 30 years of democratization in the 
region, transnational criminal networks have extended their 
sway and spread a wave of unprecedented violence across Latin 
America. Scores of journalists have been killed and 
disappeared. Media outlets have been bombed and forced into 
silence. The consequences are devastating: Many regional 
democracies have deteriorated due to political instability and 
weakened institutions.
    Violence tied to drug trafficking has made Mexico one of 
the dangerous countries in the world for the press, according 
to CPJ research. More than 50 journalists have been killed or 
disappeared since 2007. Compounding the problem of violence is 
a climate of pervasive impunity. Crimes against the press are 
never solved, not only as a result of negligence and 
incompetence but also because of widespread corruption among 
law enforcement officials, particularly at the state level.
    Breaking the cycle of impunities surrounding crimes against 
the press is Mexico's greatest challenge. Legal changes, 
although necessary, will be clearly insufficient without strong 
political will for President Enrique Pena Nieto's 
administration.
    Amid the violence and volatility caused by organized crime 
and corruption in Central America, Honduras and Guatemala have 
also experienced an alarming increase in the numbers of attacks 
against the press. Nearly complete impunity for these crimes 
means the cases go mostly unresolved and the motives 
unexplained, a CPJ report published in September found.
    Despite Brazil's image as an international political and 
economic leader and its position as the host of next year's 
summer Olympics, the country has become one of the most 
dangerous in the world for the press. According to CPJ 
research, at least 16 journalists have been killed in direct 
reprisal for their work since January 2011, while six others 
were murdered in unclear circumstances.
    In the lead up to the 2016 summer Olympics, President Dilma 
Rousseff will have to grapple with many problems, including a 
sluggish economy, the unfolding corruption scandal within the 
state oil company, and the prospect of renewed protests, like 
those that erupted around the 2014 FIFA World Cup. Precisely at 
those times, Brazil needs a vibrant, independent press that can 
freely report on these matters and carry out its work without 
fear of reprisal.
    In the next year, the world's fourth largest democracy will 
receive a flood of tourists and find itself under the spotlight 
for international media attention. Before that occurs, the 
Brazilian Government needs to go beyond rhetoric and make good 
on the promise to protect the press and combat impunity.
    While security in Colombia has improved in recent years and 
the number of killed journalists have dramatically decreased in 
the last decade, impunity is entrenched and threats and 
violence against journalists continue. Problems, such as 
overloaded prosecutors and mishandling of evidence, have 
delayed criminal investigations for years.
    Besides the issue of violence, the second most persistent 
problem facing the Latin American press is the series of 
judicial, legislative, and regulatory restrictions placed on 
the press by democratically elected governments that seek to 
control the flow of information and stifle the dissent. Showing 
disdain for the institutions of democracy, several governments 
are seeking to suppress dissent, limit critical voices, and 
censor the news that undermines their public positions. 
Describing critical journalists as the unelected opposition, 
these governments have become increasingly intolerant to media 
criticism.
    Venezuela provides the most blatant example of intolerance 
toward views and different opinions. The Government of 
Venezuela, Nicolas Maduro, has employed an array of tactics to 
weaken the press, and few remaining critical media still 
standing in Venezuela, according to CPJ research.
    Nearly all of Venezuela's strategies and tactics to rein in 
and isolate critical journalists have been emulated by 
sympathetic governments across the region, from Nicaragua to 
Ecuador. But nobody has a been better apprentice than 
Ecuadorian President Rafael Correa, whose policies have 
transformed the country into one of the hemisphere's most 
restrictive nations for the press.
    Lastly, as I testify before Congress today, I must also 
mention the climate for press freedom in the United States has 
deteriorated in recent years. Decisions by the Department of 
Justice in seizing journalists' phone records and emails, the 
aggressive prosecutions of whistleblowers who leak classified 
information to the press, and the massive surveillance of 
communications send an unequivocal chilling message to 
journalists and their sources, particularly on issues of 
national security that are of vital information to the public.
    At the same time, just as troubling, these actions in the 
United States set a terrible example for the rest of the world, 
especially where governments routinely justify the intervention 
in the media by citing national security.
    Thank you.
    [The prepared statement of Mr. Lauria follows:]
    [GRAPHICS NOT AVAILABLE IN TIFF FORMAT] 
    
                                ----------                              

    Mr. Duncan. Thank you.
    Mr. Paolillo, you are recognized for 5 minutes.

  STATEMENT OF MR. CLAUDIO PAOLILLO, CHAIRMAN, FREEDOM OF THE 
     PRESS AND INFORMATION COMMITTEE, INTER-AMERICAN PRESS 
                          ASSOCIATION

    Mr. Paolillo. Thank you, Mr. Chairman.
    My name is Claudio Paolillo. I am the chairman of the 
Freedom of the Press and Information Committee, Inter-American 
Press Association. On behalf of the Inter-American Press 
Association, I want to thank this subcommittee for this 
invitation to participate in this important hearing. We have 
already submitted to the subcommittee a written and detailed 
report with some recommendations.
    Freedom of the press and of expression in the hemisphere 
underwent a marked deterioration in recent months due to a 
significant increase in direct and indirect censorship and 
physical attacks on journalists. Violence carried out by 
organized crime, drug traffic hit men, and police-style groups 
on the orders of several governments in the region left on 
balance, more than 20 journalists murdered during the past 12 
months in Honduras, Paraguay, Mexico, El Salvador, Colombia, 
and Peru.
    But while the murders of journalists is terrible news for 
press freedom in the region, let me focus on two types of 
censorship which are of main concern to IAPA. Firstly, 
censorship in the Cuban dictatorship. The Governments of the 
United States and Cuba began a new relationship on July 20. Of 
course, it is too early to make definitive evaluations, but the 
reopening of Embassies in Washington and Havana did not produce 
any improvement in the practice of journalism or people's 
access to free information.
    Nobody in Cuba is authorized to establish an independent 
media external to the government, and the ones that exist are 
those belonging to the regime. Internet access is virtually 
impossible for ordinary citizens.
    Now, recently, 15 independent journalists, bloggers, and 
activists for freedom were arrested. After the resumption of 
relations with the United States, practices of meetings, 
arrests, intimidations, harassment, and vandalism against 
openness and independent journalists persisted; three of them 
are in jail now.
    The government of Raul Castro has asserted repression, 
using paramilitaries trying to avoid the traces of the regime 
to be recorded. In 2014, there were 9,000 arrests for short 
periods, which is the new repressive tactic of the Castro 
brothers. Since IAPA's point of view, the resumption of 
relations between the U.S. and Cuba will not be good news per 
se unless there is good news for the return of freedom to the 
Caribbean island.
    The least we can expect after more than a half a century is 
a kind of give and take, something like a barter with the Cuban 
regime. The isolation policy applied during 15 years can be 
discussed, but the price of defending freedom was valid during 
this 15 years, and it is valid now.
    Secondly, censorship in legal dictatorships. With varying 
degrees, there are now legal dictatorships in Venezuela, 
Nicaragua, Bolivia, and Ecuador. Argentina has followed similar 
paths, but in that country, there still remains some liberties 
that make it a unique case. This description of legal 
dictatorships may sound a bit strong, but we would try to 
explain it using the example of Ecuador.
    Since January 2007, in Ecuador, President Rafael Correa 
imposes a system which keeps in his fist the control of the 
three branches. He has decided to perpetrate endlessly in 
office to silence the independent and critical press, Correa 
displaced an ongoing campaign against the media, journalists, 
and citizens who have different opinions from his.
    But unlike Cuba, where there is in place a dictatorship 
that everyone recognizes as such, in Ecuador and the other 
countries mentioned, there are constitutions and laws based on 
which the freedoms of speech and press are attacked legally. In 
Ecuador is in force since June 2013 the communications act, the 
most perfect and effective gag law created in recent times in 
Latin America. This law is imposed against any critical comment 
by a team of 300 officials who are under the order of a censor 
appointed and directed by President Correa.
    To give you an idea, the gag law already enabled the 
government to impose 37 types of sanctions against 
nongovernment media outlets: Five verbal warnings, seven fines, 
four orders of rectifications, four answers imposed by the 
government, four orders to apologize, seven written warnings, 
two suspensions of radio frequencies, and three forced answers 
in specific radio programs.
    In Ecuador and the other countries mentioned, one can say 
that there are elected governments but not necessarily 
democratic governments and much less republican governments. 
Yes, there are elections, but there is no separation of powers. 
There is no independent judiciary. There is no respect for 
individual rights, and freedom of the press is constantly under 
attack. Therefore, we speak about legal dictatorships.
    Paradoxically, as they are elected, it is more difficult to 
denounce them than the very Cuban dictatorship. Without a free 
press, as our Declaration of Chapultepec says, democracy 
doesn't exist, let alone free and legitimate elections. You 
cannot say that people choose when they do not know what are 
they going to choose.
    Thank you, Mr. Chairman.
    [The prepared statement of Mr. Paolillo follows:]
    [GRAPHICS NOT AVAILABLE IN TIFF FORMAT]      
       
                              ----------                              

    Mr. Duncan. Thank you so much.
    Mr. Perez, you are recognized for 5 minutes.

   STATEMENT OF MR. NICOLAS PEREZ LAPENTTI, CO-DIRECTOR, EL 
                      UNIVERSO IN ECUADOR

    Mr. Perez. Mr. Chairman, members of the subcommittee, free 
speech and the free press are under attack in Ecuador. 
President Rafael Correa declared the independent press as his 
number one enemy within his first year in office. In the last 8 
years, journalists, opinion leaders, and media owners, have 
been denigrated, harassed, and singled out by President Correa 
and public officials on government-controlled media and on the 
streets.
    In 2012, El Universo, its opinion editor, and its three 
directors, myself included, were sentenced to pay $40 million 
in reparations to President Correa personally and to serve 3 
years in prison for publishing an unflattering op-ed column 
about the President. This situation forced the publisher to 
seek asylum and the rest of us into exile. The Inter-American 
Commission for Human Rights issued a precautionary measure 
urging Ecuador's highest court to suspend the sentence on the 
case.
    The international community's reaction and support were 
overwhelming. Leading media outlets, human rights 
organizations, academics, professional organizations, and 
international political figures, including President Jimmy 
Carter, expressed their outrage about the grotesque nature of 
this case.
    In the end, President Correa granted us his personal 
pardon, and this newspaper was spared from shutting down. Until 
this day, the judicial precedent is still alive, and its 
chilling effect on the Ecuadorian society is palpable. Now we 
will look for justice beyond our borders. Our case against the 
state of Ecuador is pending at the Inter-American Commission 
for Human Rights.
    Today, the Ecuadorian media faces a subtle yet more 
threatening scenario. Censorship of free speech and the free 
press has been sanctioned into law. President Correa's majority 
in Congress passed the communications law 2 years ago. In the 
eyes of this law, information is a public service and the media 
is a public utility, no different than your local power and 
light company. Therefore, it all has to be intensely regulated 
by the government.
    A special agency was created to uphold the lost mandate 
that all information be verified, contrasted, timely, and 
contextualized. And to enforce this law, a superintendent was 
selected from a short list of three candidates nominated by 
President Correa himself.
    Since then, this agency has obliged media outlets to 
rectify and apologize for publishing information inconvenient 
for the government. Furthermore, imposing confiscatory fines 
that start at 10 percent of revenues averaged in the last 3 
months, these fines double each time the infraction recurs in a 
6-month period. As an example, the first fine El Universo faces 
is approximately $350,000; the second fine would be $700,000; 
the third, $1.4 million; and so on.
    This new law enables the government to silence the press by 
imposing progressive fines that could bankrupt any media 
outlet. This outrageous situation is unique in the region. No 
other country has a law that enables censorship of the printed 
press by the highest levels of government.
    For 94 years, through four generations, El Universo has 
endured through all forms of hostile political power, yet we 
are certain that this is the free press' darkest hour in 
Ecuador. Freedom of expression in all its forms is a 
fundamental right essential to democracy. These United States 
and Ecuador have a long history of shared democratic values 
included on several human rights treaties which our nations are 
signatories of.
    This is why we respectfully urge this House not to remain a 
silent witness to these attacks on the cherished, fundamental 
rights. Therefore, we recommend, first, that you state your 
concern about the current state of freedom of expression in 
Ecuador and condemn the policies and practices that seek to 
silence the free press; second, to initiate a direct dialogue 
on these crucial issues of freedom of expression with Ecuador's 
legislative branch; third, stand by the Inter-American 
Commission of Human Rights through this challenging time when 
it has been the target of attacks by the Ecuadorian Government; 
fourth, support and strengthen the Commission's Office of the 
Special Rapporteur for freedom of expression, which is the last 
line of defense for dissenting voices in the region; and, 
finally, place freedom of expression as a top priority on the 
United States' foreign policy agenda toward Ecuador and other 
countries facing the same challenges. Thank you.
    [The prepared statement of Mr. Perez follows:]
    [GRAPHICS NOT AVAILABLE IN TIFF FORMAT]  
        
                              ----------                              

    Mr. Duncan. Thank you.
    And, Mr. Corchado, 5 minutes.

  STATEMENT OF MR. ALFREDO CORCHADO, MEXICO BUREAU CHIEF, THE 
                      DALLAS MORNING NEWS

    Mr. Corchado. Thank you, Mr. Chairman.
    My name is Alfredo Corchado, and I am the Mexico bureau 
chief for the Dallas Morning News, based in Mexico City. On 
behalf of my colleagues in Mexico, I thank you for the 
opportunity to talk about such a critical issue, freedom of 
expression.
    I would also like to commend Chairman Duncan, Ranking 
Member Sires, and members of the Committee on Foreign Affairs 
for this important hearing.
    I live in, work in, call home a country where in recent 
months every 26 hours a reporter is attacked, most of them by 
either the government or criminal gangs. Too many journalists 
in my homeland of Mexico have paid the ultimate price. This 
afternoon, I hope to honor their memory.
    Mexico, as many have mentioned, is one of the most 
dangerous places to be a journalist. Every day, I walk in the 
shadow of more than 120,000 people killed or disappeared in 
just over 8 years, among them dozens of Mexican journalists, 
colleagues who were more vulnerable and face a more dangerous 
and precarious situation than I do.
    Drug traffickers and corrupt government officials bully 
reporters, harassing them if they are lucky or silencing them 
for good if they are not. Today, I speak to you in the memory 
of more than 50, or as many as 120, journalists who have either 
been killed or disappeared since Mexico's political transition 
began in 2000.
    Today, there are regions in Mexico where reporters have 
elected to sensor themselves. In other words, see nothing, say 
nothing. These are known as regions of silence. And who can 
question the logic of my Mexican colleagues? The vast majority 
of those cases remain unsolved. Mexico's rule of law remains 
so, so weak. Institutions are virtually nonexistent. Crimes go 
unpunished.
    As my Mexican colleague Javier Garza, who collaborates on a 
project called ``Journalists at Risk'' that documents attacks 
against the press, says, ``The most worrying aspect of this 
growing trend of violence is that Mexico is going backwards.'' 
This is a sad irony because, even with the advances in 
elections, government transparency, and media competition in 
the last 15 years, press freedom in Mexico is smaller, not 
bigger.
    Mexico's inability to protect its journalists and defenders 
of freedom of expression against criminals is beyond shameful. 
It is both shocking and offensive to those who believe that 
journalism is a powerful tool to shine the light and to hold 
the powerful accountable.
    Just as outrageous, my Mexican colleagues say, in Mexico 
they still kill you twice--once with the bullet, a blow to the 
head, or in a barrel of acid, and then they kill you again 
through character assassination, by spreading rumors about you, 
or even pressing criminal charges, as we have repeatedly seen 
with other journalists, especially those working in rural 
communities across Mexico, whether Veracruz, Oaxaca, 
Tamaulipas, Zacatecas, Michoacan, and so on.
    Even in Mexico City, where we thought journalists like 
Carmen Aristegui were untouchable, it appears now that we were 
wrong. One of the most influential journalists in Mexico, 
Aristegui and her team uncovered, among other big stories, that 
the President and his wife had purchased a $7.1 million home 
from a government contractor--clearly a conflict of interest.
    Aristegui and other journalists organized a Web site for 
whistleblowers. In any democratic country, such acts of courage 
in journalism would be awarded. In Mexico, Aristegui and her 
team were fired. Whatever, whoever is behind the firing, one 
thing is certain: Freedom of expression in Mexico is threatened 
even further.
    I was born in Mexico and grew up in the United States, 
earning along the way a blue U.S. passport. Today, I am a 
binational citizen, holding both U.S. and Mexican citizenship. 
Yet I believe that being an American is the reason I report on 
stories that many of my colleagues don't live long enough to 
tell. Those are stories about the very same people who now hold 
pockets of the country hostage.
    In July 2007, I got a call from a U.S. trusted source 
asking me, where are you? In Mexico City, in my neighborhood of 
La Condesa, I replied; why? We have information that the Zetas, 
a criminal paramilitary group, plan to kill an American 
journalist within 24 hours, and I think it's you. Get out.
    I felt the ground under me collapse, my legs weaken, the 
life in me sucked away. I felt betrayed. I had wanted to 
believe that I was a son of Mexico, and now someone wanted to 
kill me. I was a mess.
    I had once asked the same source about the likelihood that 
an American journalist would be targeted by a cartel. He said, 
I have good news and bad news. The good news: A Mexican cartel 
does not want to harm an American journalist. It would bring 
too much attention to their estimated $30 billion, $40 billion 
industry. The consequences could be too messy for them. The bad 
news: You don't look American, bro.
    See, I tell you this story because I want to make something 
very clear. I am by no means more courageous or braver than any 
of my Mexican colleagues. I just want to believe that, if 
something happens to me, someone, somewhere, someone in this 
room, will seek justice. I won't be just another number, I 
won't be a faceless victim. Because, as bad as my situation may 
sound, the danger I face pales in comparison to what my Mexican 
colleagues confront. Simply put, I have more protection.
    In conclusion, in Mexico, Latin America, and across the 
world, journalists will only be safe when the aggressors, 
whether criminal groups or public authorities, are brought to 
justice, when criminals pay a price.
    Today in Mexico, attacks against journalists are rarely, if 
ever, solved. Mexico's National Human Rights Commission 
reported last year that nearly 90 percent of the attacks, 
murders, and disappearance of journalists remain unpunished. As 
we say in Mexico, ``La vida no vale nada.''
    The Mexican Government has a method in place to protect 
journalists, one that the U.S. Government supports. The 
government also has a special prosecutor. But both the 
mechanism and the prosecutor have been largely ineffective.
    The U.S. Government needs to do more to continue pressuring 
Mexico by raising concerns about attacks against freedom of 
expression. Otherwise, as the Washington Office on Latin 
America recently stated, freedom of expression will continue to 
be limited in Mexico unless Mexican authorities conduct full 
investigations and prosecutions of these crimes and implement 
effective mechanisms to protect human rights defenders and 
journalists at risk. We could not agree more.
    Again, thank you very much.
    [The prepared statement of Mr. Corchado follows:]
    [GRAPHICS NOT AVAILABLE IN TIFF FORMAT]     
    
                              ----------                              

    Mr. Duncan. I want to thank you.
    I want to thank the witnesses, many of which have traveled 
a long way to be here with us today, from Ecuador, from Uruguay 
and Mexico. And I know all of you traveled a good bit, so thank 
you very much.
    And, Senor Paolillo, Montevideo is one of my favorite 
places. I have traveled there personally and love it. The Rio 
de la Plata is just beautiful. So I love your country.
    I will say this. A question to you. You mentioned 
Argentina. Was Argentina restricting freedom of the press prior 
to President Kirchner, or are we seeing it trend that way and 
landing on these lists during her tenure?
    Mr. Paolillo. Well, as I already said, Argentina is not the 
same as Venezuela, Ecuador, Bolivia, and Nicaragua. There 
remain a number of liberties that are under attack by the 
Kirchners' government mainly. We have to take in account that 
the Kirchners are now 12 years in office, first Nestor 
Kirchner, then his wife.
    But there are a score of denounces of journalist, freedom-
of-the-press organizations against Argentina. Because, for 
example, the President used the national chain for channels and 
radios to insult journalists, to expose the private lives of 
journalists. And on media also, there is suppression, 
absolutely illegitimate.
    And there is managing money with discretionary political 
differences. Millions of dollars of official advertisement that 
goes for the media that is in favor of the government, that 
doesn't go to the media that is critical or independent.
    So, yes, in Argentina, it seems the Kirchner family took 
power, the freedom of the press has lowered. But, in Argentina, 
as we don't have in Ecuador or Venezuela and Nicaragua and 
Bolivia, there still remain TV programs, for example, or 
newspapers that can fight against this authoritarian regime but 
not a totalitarian regime yet.
    Mr. Duncan. I take a particular interest in Argentina just 
because of Senor Alberto Nisman and the Iranian issue and 
Hezbollah, tri-border region, and the attacks on the AMIA 
Cultural Centers and whatnot back in the 1990s and the 
investigation. So I wondered whether the Argentine people are 
getting their right and the truth on that issue with Iran or 
whether Mr. Nisman was telling the truth, and his unfortunate 
death. So I am following that very closely.
    I wanted to ask Dr. Ponce, is there a direct correlation 
between the deterioration of press freedom and weak judicial 
systems? And the reason I ask is we hear a lot about rule of 
law, talked even today about rule of law in Latin America. And 
so the judicial systems are very important. So is there a 
direct correlation between deterioration of freedom of press or 
press freedom and the judicial system?
    Mr. Ponce. Yes. Thank you very much for your question.
    Yes, it is a direct correlation. In all the countries where 
we see the deterioration of the freedom of the press, freedom 
of expression, we see that the institutions are not working or 
that there is no independence.
    The worst case is Cuba. Of course, you don't have any 
judiciary in Cuba. Then you have Venezuela, in which the person 
of the Congress or the Assembly directly control the judiciary 
and ask for some people to take some people to jail. Or you 
have the same situation in Mexico, in which you have impunity; 
or in Honduras, in which the judiciary is weak; or Ecuador, in 
which the government controls the judiciary.
    As soon as the government begins to control the judiciary, 
there is no independence, and there is actually impunity for 
the crimes against----
    Mr. Duncan. So the threats and the physical attacks and 
other things on the media, on the journalists themselves, go 
unpunished.
    Mr. Ponce. Unpunished. And, in some cases, like in 
Venezuela or in Cuba, you have the government directly 
attacking the journalists.
    Mr. Duncan. We saw that in Panama, not necessarily with 
journalists but with demonstrators.
    Mr. Ponce. It is not only in Panama. In El Salvador 
directly, the Government of Cuba--well, allegedly, the 
Government of Cuba and the Ministry of Security of El Salvador 
tried to deport 11 Cubans just because they want to go to 
participate in an international event in El Salvador. So it is 
not only in their countries; they are trying to impose also 
their regimes outside the country.
    It is the same case with Venezuela, persecuting human 
rights activists anytime that they travel to go to an Inter-
American Commission, to go to the U.N., they are persecuted by 
the regime anytime they travel.
    So it is not only the impunity for the case against the 
journalists; it is the government directly persecuting 
journalists in each one of these countries.
    Mr. Duncan. Wow. So it would be your opinion that 
journalists are being specifically targeted as a result of 
their reporting?
    Mr. Ponce. Oh, yes.
    Mr. Duncan. They are not just victims of a broader 
deterioration of the security conditions in the country. They 
are actually being targeted because they are journalists and 
their type of reporting.
    Mr. Ponce. You can establish the link between the death of 
the journalists in Guatemala or the death of the journalists in 
Mexico with their investigative reporting. They have been 
investigating a precise case of corruption or precise case of 
abuses, and they got killed in each own country.
    Right now, for example, in the case of Guatemala, you see 
some journalists, they have been reporting about the campaign 
and about the abuses in the campaign. And this one candidate, 
Baldizon, threatened directly the journalists.
    So the journalists has been under attack not only by the 
government, not only by the people behind the power, also for 
the people who wants to take control of the country. It is a 
sad situation in the region.
    Mr. Duncan. All right. Not supposed to happen in democratic 
governments, right?
    My time is up. I will turn to the ranking member for 5 
minutes.
    Mr. Sires. Thank you, Mr. Chairman.
    You know, one of my disappointments is, every time we have 
somebody from the State Department here, they tell us how in 
the Western Hemisphere they are becoming more democratic and 
they are having more elections, and I tell them that I disagree 
with that assessment. Anytime you have these governments which 
stifle freedom of speech, I don't think that is a democratic 
pathway.
    And I believe that there is almost like a domino theory. 
You get one country that starts stifling the press. The other 
country sees that this country is getting away with it. He 
starts doing it. The other country sees that these two 
countries have it, and they start doing it. I think that is 
what is happening in the Western Hemisphere. It started with 
Cuba, Venezuela. Then you have Ecuador, Bolivia, you know, 
Guatemala, Honduras.
    Is there anyplace in the Western Hemisphere where the press 
is strongest? Anybody.
    Mr. Lauria?
    Mr. Lauria. I mean, I would say it is not all black and 
white. There are examples of great investigative work in the 
Americas, all around Latin America. I mean, in Brazil, for 
example, you have great work by investigating journalists, 
revealing, exposing corruption. And you can see the country 
being hit by probably the most largest corruption scandal in 
decades of a state-owned company and the press revealing some 
of those corruption scandals.
    Even in countries like Mexico, for example, where areas are 
outside the control of the government and are virtually taken 
by organized crime, you have great examples of courageous 
journalists doing work, investigative work, on drug 
trafficking, on corruption, on the collusion between 
authorities and organized crime.
    I will cite two examples in Mexico. The magazine Zeta, in 
the city of Tijuana, that suffered the murder of two of its 
editors in the past and continues to do great work 
investigating the Arellano Felix cartels and drug trafficking 
and corruption there. And another magazine in the state of 
Sinaloa, where the famous druglord Chapo Guzman was born, 
Riodoce, in a context of violence, they are still doing great, 
great work.
    And I can cite examples on different countries where 
journalists, despite the threat of violence, the threat of 
persecution, the threat of jail, are doing very courageous 
work, even in Venezuela and in Cuba. You have a prominent 
blogger, Yoani Sanchez, launching a magazine, 14ymedio, doing 
remarkable work.
    So I am encouraged, greatly encouraged, by those examples 
of great work despite these challenges.
    Thank you.
    Mr. Paolillo. Yes, I would like to say that, first, 
14ymedio is a great job of Yoani Sanchez, as you said. It's 
okay. But no Cuban can read 14ymedio. We can read 14ymedio from 
abroad but not from Cuba.
    But I would like to underline, as to your question, that 
there are some countries where freedom of the press is more or 
less respected, or mainly respected. And that includes Costa 
Rica. That includes my country, Uruguay, which is a leftist 
government, but, nevertheless, there is respect for freedom of 
the press.
    Brazil, as Carlos said, is another example. Without the 
freedom of the press in Brazil, the big cases of corruption 
wouldn't have been known by the people and by the judiciary 
after that.
    Panama, who had--the press of Panama, who had a bad time 
during the Martinelli period, they printed denounces about the 
corruption of that government. And they had the freedom to do 
it, and they did it. And now the former officers of the 
Martinelli government are going to jail in Panama because of 
the work and the job of the press.
    Thank you.
    Mr. Sires. Mr. Corchado?
    Mr. Corchado. I would just echo what Carlos said. I mean, 
there are many journalists in Mexico, who, in spite of the 
dangers, in spite of the risks, continue to do great 
investigative work.
    But, as I said in my testimony, I mean, the consequences 
are great. You have someone like Carmen Aristegui, who does an 
incredible investigation, and the price she is paying. You have 
other journalists, many who have sought political asylum in the 
United States, paying a big price.
    Yet, in spite of the dangers, there are many people who 
still believe in journalism holding the powerful accountable.
    Mr. Sires. Thank you.
    Mr. Duncan. The gentleman's time has expired.
    The chair will recognize the former chairman of the 
committee and the chairwoman of the Middle East and North 
Africa Subcommittee, Ms. Ros-Lehtinen, for 5 minutes.
    Ms. Ros-Lehtinen. Thank you so much. Thank you, Chairman 
Duncan and Ranking Member Sires, for convening this important 
hearing on a topic that receives very little attention here in 
the U.S. You have excellent panelists. I congratulate you for 
selecting them.
    Press freedom in Latin America is indeed under threat from 
regimes that seek to squash any dissenting voices. The Inter 
American Press Association noted at its 70th general assembly 
in October that press freedoms and freedom of expression have 
suffered a noticeable decline last year, in 2014.
    Venezuela's law of 2004, la Ley de Responsabilidad Social 
en Radio y Television, is designed to muzzle broadcast media 
into submission, leaving journalists and editors with no choice 
but to self-censor their own content. The Venezuela model has 
been copied successfully, lamentably, in Argentina's 2009 law, 
Ley de Servicios de Comunicacion, and Ecuador's Ley Organica de 
Comunicacion. And, as we speak, the Bolivian Government 
threatens to enact a similar law.
    In Ecuador, we also see journalists being attacked and sued 
by Correa, as all of you have pointed out, or media outlets 
fined for running articles that are deemed to be in opposition 
to the current regime in power.
    In Nicaragua, Ortega continues to restrict press freedom by 
harassing and seeking to censor media outlets or making it 
difficult for them to operate in a free and open environment. 
Equally concerning are the physical attacks that journalists 
have suffered at the hands of police forces and armed thugs on 
the orders of officials seeking to curtail coverage of events 
that portray a negative image of their decadent regimes.
    In my native homeland of Cuba, Freedom House ranks Cuba 193 
out of 199 in their press freedom ratings. And despite the 
Obama administration's best efforts to present to us a change 
in Cuba, as the panelists have pointed out, the Castro regime 
still considers clandestine printing as a crime against the 
public order. And many of the digital media, as you have 
pointed out, are available for outside of Cuba, but normal, 
everyday Cubans have no access to it.
    And, furthermore, any press outlet that tries to portray an 
independent analysis of the reality of what occurs in Cuba, 
such as the human rights violations and the continued attacks 
against Las Damas de Blanco, the Ladies in White, they are 
expelled from the country.
    Yet, despite a decline in press freedom, nowhere does the 
battle for freedom rage stronger than in the confines of 
cyberspace. Latin America and all of its regimes are 
increasingly challenged by digital vehicles such as social 
media blogs, Internet news aggregators. It has become 
impossible to hide its atrocities from being documented in 
graphic, painstaking detail by social media, even if it is not 
available in those countries, angering their perpetrators, who 
have tried, in varying degrees of success, to ban these digital 
vehicles.
    So this is a key moment for the future of a free press in 
Latin America. The United States must remain vigilant of 
proposals to regulate or sensor the Internet in our hemisphere. 
A free Internet is the key to fighting against the atrocities 
in Latin America and the last bastion of freedom against the 
scornful tyrannical regimes that plague our hemisphere today.
    I want to ask Dr. Ponce about Venezuela.
    December 6 is elections. Is it plausible for an election to 
be considered fair if opposition candidates can only spread 
their messages almost exclusively through the Internet?
    One of the main concerns in Venezuela is the imposing size 
of state-owned media. Critical outlets like El Universal and 
Globovision, among many others, have been swallowed by the 
hegemonic state apparatus. And now we have the elections coming 
up; they no longer count on a vehicle to deliver their messages 
to the general public.
    How do you analyze the upcoming elections and the viability 
of candidates without access to the state-owned media?
    Mr. Ponce. As simple as ``no.'' No, the truth of Venezuela 
is everything is manipulated in the election. From the 
selection of their party to the electoral authorities, they 
violate their own constitution to select the current members of 
the electoral authorities. They have violated the law, 
established new rules, changing the rules of the game. They did 
that before, and they continue doing that.
    Instead of electoral service, they are going to have a 
scored service with UNASUR or whatever is there. They are not 
going to allow the European Union, they are not going to allow 
the OAS. Or, if they allow them, it is going to be at the last 
minute.
    This is the time for the European Union, the OAS, or any 
serious institutions to begin monitoring the investment in the 
campaign, the control in the media, the capacity of the 
opposition to fight back. They have been criminalizing some 
candidates, banning them for participating in the election. 
They have been also persecuting bloggers, Web pages, LaPatilla. 
Some of the owners of the media have been persecuted by the 
regime.
    There is actually an activity directly by the president of 
the Parliament persecuting all the NGOs that work directly 
monitoring the institutions, some of them monitoring the media. 
There is no separation of power.
    Even the international media, they have been kicking out 
the international media, like NTN24. They have been also 
restricting the access of CNN to Venezuela.
    So it is impossible with just some blogs and Web page to 
control what is going on in Venezuela, to monitor the situation 
in Venezuela. It is going to be an uphill battle for a weak 
opposition to win a battle against a criminal authoritarian 
regime.
    Ms. Ros-Lehtinen. Thank you.
    And just one last note, Mr. Chairman and Mr. Sires. As we 
know, in Cuba, the Castro regime expects all press, works of 
literature, films, everything to meet an inflexible ideological 
standard set by the Communist Party before its content is 
disseminated to the masses. So we have a monopoly of the 
Communist Party hindering the free flow of information. And 
this impacts the work of pro-democracy activists and 
journalists and entrepreneurs, and they really have very few 
tools to get around this obstacle.
    Thank you for holding this hearing, Mr. Chairman and Mr. 
Sires.
    Mr. Duncan. Thank you so much. And I think the best answer 
of the day was ``Cuba is Cuba.'' That is exactly right. It kind 
of sums up your comments.
    I am going to turn to the ranking member for a second round 
of questions.
    Mr. Sires. I was just wondering, Mr. Corchado, Mr. Perez, 
are you concerned that these thugs have a long reach when you 
are in this country? Are you concerned for your safety here? 
When you do an article on corruption or when you do an article 
exposing the government's abuses and you are here, do you have 
concerns that these people have that long of a reach?
    Mr. Corchado. I mean, as I said in the testimony, whatever 
danger I face really pales in comparison to my colleagues in 
Mexico. I mean, I want to believe that once I cross into the 
U.S. I am safe.
    I constantly feel like I have to remind people, especially 
if I am on the Mexican side of the border, that I am an 
American citizen. I carry my passport around with me. Every 
year, I come to Congress here and I get my congressional ID as 
a form of protection.
    I don't put it past criminal groups--I mean, they are 
definitely here in the United States. They are in many cities. 
But I want to believe that there is a price to pay and that 
they won't touch an American journalist. I mean, it is an 
economic war. It is not a religious, it is not a political--it 
is an economic battle. So I want to believe that the 
consequences of the price will be too high.
    Mr. Sires. Mr. Perez?
    Mr. Perez. Well, I do--I certainly feel safe on American 
soil. But, in my case, I still have my family and my enterprise 
back in Ecuador. So, to answer your question, yes, maybe I 
personally feel safer here, but anything that I might say here 
might be taken, you know, back home and be taken in retaliation 
to, you know, my family and my enterprise.
    Mr. Sires. Anybody else?
    Mr. Paolillo. Yes. About the reach of these----
    Mr. Sires. Different groups.
    Mr. Paolillo. Yes. This information we have already gave to 
you here. I would like to talk about the U.S. and the U.S. 
Government and U.S. Congress. Thank you for organizing this 
panel and this hearing.
    But it is my point of view, the United States Government is 
not so involved in these problems as we would like the U.S. 
Government to be. Of course, we are not asking for any 
intervention, military intervention, nothing like that. But as 
a suggestion, I have this one. The Congress of the United 
States should persuade the executive branch to have a stronger 
voice in body where America and Latin America interact; that is 
the Organization of American States.
    There is no news about legal dictatorships, as I call them, 
in Latin America. In the past, Mr. Anastasio Somoza, who was 
the dictator of Nicaragua for 40 years, used to say--used to 
hold elections, and he said, don't worry, you can vote freely, 
but the one who is going to count the vote is me, so don't 
worry about that. And he remained in power for 40 years as a 
dictator.
    So this is happening now in our countries, in some of our 
countries. In the countries I mentioned, there are legal 
dictatorships.
    And there is in place and was approved precisely in 
September 11, 2001, a document in the Organization of American 
States that is called the Inter-American Democratic Charter 
that was approved by all the governments of the region and is 
still in force.
    I think, just as we ask to other governments of Latin 
America, we ask the Government of the United States to urge 
each members of governments of the inter-American community to 
put in practice the principles that are in that charter that is 
in place now, is in force now. That is the only thing.
    Thank you.
    Mr. Sires. Thank you.
    Do you want to add something?
    Mr. Lauria. Yeah. I mean, I would like to just reflect on 
what the real problem for the public and democratic system of 
censorship due to violence and censorship due to government 
repression is creating. And I think that, you know, because of 
violence, because of government repression, many journalists, 
many media outlets across the hemisphere are not able to report 
the news.
    I think that this is leaving many people in many countries 
unable to make informed decisions, and this is because of the 
difficulties the press faces in its daily work. And I think 
that an uninformed society is a less transparent and a less 
democratic one.
    So this is, I think, one of the biggest challenges these 
threats against the press are creating in the hemisphere.
    Thank you.
    Mr. Duncan. I want to thank you.
    Mr. Corchado, I just have a quick question. And this isn't 
in the prepared questions I had; something came to mind.
    Do you think the Mexican people and the world got the full 
story or have gotten the full story over the missing college 
students, the 43 students? And was there any intimidation or 
anything by the Mexican Government over that incident?
    Mr. Corchado. I don't think anyone on either side of the 
border really has the full story on that. I mean, a human 
rights report just came out that talked about a lot of the 
inconsistencies, a lot of the problems, a lot of the 
challenges. So it remains in large part still a mystery, what 
happened to the 43.
    Mr. Duncan. Yeah. Well, my heart and prayers go out to the 
families and Mexico in general. And maybe one day the whole 
story will come out.
    Mr. Perez, how would you assess Ecuador's implementation of 
the 2013 communications law?
    Mr. Perez. In our case, specifically, we have a long 
history, as I detail in my written report, that it has affected 
us, you know, personally, and the newspaper, our enterprise.
    Now, in a general sense, just coming after our lawsuit, it 
has definitely cemented this chilling effect that is centered 
on the Ecuadorian society right after El Universo's sentencing. 
And what it did is actually, you know, sanction into law 
everything that--all of the precedents that came from the El 
Universo case.
    So the chilling effect that first came upon the Ecuadorian 
society from El Universo's sentencing was sanctioned into law, 
and today we do see self-censorship everywhere.
    Now, in Mr. Lauria's intervention, he says--and I do 
commend also, there are few journalists taking big risks 
personally, because most of them are not belonging to media 
outlets anymore. These people are by themselves blogging, and 
they are taking big risks by freely opining about what is going 
on in Ecuador. But there are a diminishing number.
    Mr. Duncan. Are they having to blog anonymously, or are 
they open with it?
    Mr. Perez. They are open with it.
    Mr. Duncan. Wow.
    Mr. Perez. They are open with it. But there is still an 
ever-fewer number of them. So we have a fewer number of 
independent media outlets running in the country. One of them 
shut down for financial and pressure reasons. El Comercio from 
Quito has been bought out from an international investor. And 
so what is left are, you know, the two newspapers in Guayaquil 
and a TV broadcast station from Guayaquil.
    So we do see an ever-diminishing number and a few 
journalists taking risks, but most of them actually being 
censored or silenced. You know, self-censorship is a reality in 
our country.
    Mr. Duncan. Well, let me ask you this. How active is social 
media in Ecuador?
    Mr. Perez. It is very active, and it is----
    Mr. Duncan. So does that act as a check and balance on the 
government to actually support journalists or to keep them 
honest?
    Mr. Perez. Yes and no. Social media has become more and 
more used in Ecuador. It is even more popular than ever. But--
--
    Mr. Duncan. Who does the public lean on more? Are they 
trusting social media more than they are the traditional 
journalist, or vice versa?
    Mr. Perez. Well, when I say social media is being used 
more, I mean not so much as, I guess, a reporting tool, more of 
a, really, a popular expression tool.
    Mr. Duncan. But not dissemination of information.
    Mr. Perez. Well, it is used for that, too. But I guess, as 
I said, there is a diminishing number of independent media 
outlets and independent journalists using them. There is an 
ever-greater number of just citizens actually concerned about, 
you know, and discussing using social media. But as that number 
of citizens grows, the presence of the government on social 
media grows even faster.
    Mr. Duncan. Wow.
    Mr. Perez. So, you know, it has been documented, the troll 
centers that the government runs and the number of trolls that, 
you know, use social media to harass and poke at people that 
are opining independently. And the same in just the present, 
you know, harassing, you know, social media users. The famous 
case of Crudo Ecuador, who was singled out in a weekly address 
and, you know, harassed until he shut down his Web page.
    Mr. Duncan. Right.
    Mr. Paolillo, in Uruguay, social media, is that very 
active? Is it a check and balance on the--and what is your take 
on social media throughout the region? I am curious about this 
now.
    Mr. Paolillo. About Uruguay, I can say that the press is 
the main thing to the check and balances in that country, 
because there is freedom of the press in the country. So social 
media is very active, but the press is very active also. So 
that is a very--the very best environment for freedom of 
expression, one of the best environments in Latin America, I 
think.
    The rest of the region, I can see that citizens, regular 
citizens, using more and more social media to protest against 
authoritarian regimes. But the government still points out to 
the traditional media to silence the information and the 
reports or whatever. So, despite that social media is growing, 
the activities of regular citizens in social media is growing, 
the traditional media still has a lot of force in Latin 
America.
    And regular people are not doing investigative reporting, 
checking facts or whatever. They are just denouncing 
situations. But you cannot compare that with the traditional 
media. There is no mistake of Mr. Correa and his colleagues 
targeting the traditional media, because this is the one that 
has the journalists paid for doing investigations, deep 
investigations.
    So I think, again, social media is very active throughout 
the region, but the traditional media is also very important.
    Mr. Duncan. I mean, that is interesting, it is reactive. We 
saw that in Ferguson, Missouri, where social media propagated a 
false narrative on what the events were, and the traditional 
media picked up on that, and that became the narrative, but it 
was later proven not to be the correct sequence of events and 
what actually happened.
    And so, you know, traditional media has to try to find a 
sweet spot with social media's reactiveness, as you say, and 
traditional reporting, which is investigative, it is 
background, it is digging a little more. So I think everyone in 
journalism is probably struggling with that to some degree.
    Mr. Lauria, if you would like to chime in?
    Mr. Lauria. Yes.
    Social media in Mexico, we have found at CPJ, has become a 
way for citizens to be informed, especially in areas where 
organized crime are controlling territory and the media cannot 
do any kind of reporting, not even massive shootouts in broad 
daylight. Those reports are off-limits for journalists working 
in print, in broadcast. And, you know, there are areas in 
Mexico where citizens can only get information in social media 
networks.
    So, in that case, social media is filling a vacuum. There 
is an information vacuum in many places in Mexico. People are 
completely uninformed of what is going on in their communities 
because the press has not fulfilled its role. It is completely 
muzzled.
    Mr. Duncan. Let me ask you this. Are bloggers invited to 
press events by the government?
    Mr. Lauria. If they are invited?
    Mr. Duncan. Are they invited? Are they able to cover it? 
You know----
    Mr. Lauria. In some areas.
    Mr. Duncan. Right.
    Mr. Lauria. Yeah. Yeah. Definitely.
    Mr. Duncan. Here in America, I know, and in my State, for a 
while bloggers were not treated as traditional journalists and 
weren't invited. And I just wondered because----
    Mr. Lauria. Yeah.
    Mr. Duncan. So, Dr. Ponce, do you want to chime in? I think 
this might be the last question of the day.
    Mr. Ponce. Yes. The problem with social media only is that 
social media is also open for the regimes. They have 
established blogs. They have established their own Twitter 
accounts. They persecute some of the people that tweet. For 
example, a reporter who denounced the crime, the Nisman crime, 
he had to flee the country.
    So they persecute the users of Twitter. They persecute the 
users of social media. But they also create their own media. 
They create their own blogs, they create their own information. 
They try to manipulate information. And, in some cases, there 
are bloggers in every country who are producing information, 
and it is impossible to substitute investigative journalists.
    One of the things that is missing in the social media, in 
the blogs and all the series of media that we have around, is 
the investigative journalist and the access from this media to 
the majority of the population.
    In Cuba, it is through El Paquete that the people is 
learning about what is going on outside, reading the newspaper 
from Miami with El Paquete. It is not through the social media. 
In Venezuela, it is not through the social media. They learn 
from CNN, and they learn from some Twitters and some other 
forms.
    But it is really hard for these platforms to get to the 
majority of the people or to pay for the investigative 
journalists.
    Mr. Duncan. Right. You know, think about the game-changer 
that social media and access to the Internet would be in Cuba. 
I think about that often.
    Well, listen, I want to thank you all for being here and 
taking time. I know we monkeyed with the time today to start 
the hearing a little earlier, and then it became later due to 
votes, but I want to thank you. And I look forward to following 
up on this at a later date.
    So, pursuant to Committee Rule 7, members of the 
subcommittee are permitted to submit written statements to be 
included in the official record. And, without objection, the 
hearing record will remain open for 5 days to allow statements, 
questions, extraneous materials for the record and subject to 
the limitation rules.
    With that, we will stand adjourned.
    [Whereupon, at 4:06 p.m., the subcommittee was adjourned.]
                                     

                                     

                            A P P E N D I X

                              ----------                              

[GRAPHICS NOT AVAILABLE IN TIFF FORMAT]  
         

                                 [all]
</pre><script data-cfasync="false" src="/cdn-cgi/scripts/5c5dd728/cloudflare-static/email-decode.min.js"></script></body></html>
